                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM




           We received an allegation that two PIS' had falsely claimed to be, to employ or that their research
           impacted "underrepresented minorities." A review of the proposals revealed that only one of the p1s2
           was responsible for the use of the term. We wrote the PI to determine if he was falsely claiming the
           status of an underrepresented minority. In his response, he indicated he had not fully understood
           NSF's definition of underrepresented minorities, that he has since researched and understood the
           definition, and that he will not incorrectly use the term again.

           We wrote to the PI directing him to take adequate care in all aspects of his proposals. No further
           action is required in this case. Accordingly, this case is closed.




                                  proposals, the one in which
                                                                         is responsible for the use of the term.



I'
 NSF OIG Form 2 ( 1 1/02)
